THE DEPARTMENT OF JUSTICE’S

MANAGEMENT OF THE FEDERAL

 EMPLOYEES’ COMPENSATION

       ACT PROGRAM


       U.S. Department of Justice

     Office of the Inspector General

              Audit Division


          Audit Report 09-34

             August 2009

                                TABLE OF CONTENTS


Introduction .......................................................................................1


       OIG Audit Approach.......................................................................3

       Results In Brief .............................................................................3

       Background ..................................................................................6

       Prior Reports on the FECA Program .................................................8


DOJ’s Management of the FECA Program............................................9


       Injury Case Rates and Total Cost .................................................. 11

       Ineffective Monitoring of DOJ FECA Cases ...................................... 17

       Lack of Second Medical Opinions and Medical Updates ..................... 21

       DOJ’s Return to Work Efforts ........................................................ 23

       Monitoring Chargeback Reports..................................................... 28

       Ineffective Monitoring Leads to Potential Abuse and Fraud................ 29

       Long-term Costs of Ineffective Monitoring ...................................... 31


Conclusion ........................................................................................35


Recommendations ............................................................................36


APPENDIX I –              STATEMENT ON COMPLIANCE WITH LAWS

                          AND REGULATIONS ..............................................38


APPENDIX II –             STATEMENT ON INTERNAL CONTROLS..................39


APPENDIX III –            AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY ..40


APPENDIX IV –             ACRONYMS ...........................................................42


APPENDIX V –              FECA PROCESS OVERVIEW ...................................43


APPENDIX VI –             DEPARTMENT OF LABOR OFFICE OF

                          WORKERS'COMPENSATION PROGRAM DISTRICT 

                          OFFICES ...............................................................44


APPENDIX VII – SCHEDULE OF BENEFIT EXPENSE BY AGENCY .......45


APPENDIX VIII – CLAIM FORMS CA-1 AND CA-2 ..............................46


APPENDIX IX –             COMPARISON OF RESULTS AND FINDINGS OF 

                          FECA PROGRAM AUDITS .......................................50

APPENDIX X –     OVERVIEW OF THE FECA CHARGEBACK
                 PROCESS .............................................................. 52

APPENDIX XI –    JUSTICE MANAGEMENT DIVISION'S RESPONSE
                 TO DRAFT AUDIT REPORT ..................................... 53

APPENDIX XII –   OFFICE OF THE INSPECTOR GENERAL
                 ANALYSIS AND SUMMARY OF ACTIONS
                 NECESSARY TO CLOSE THE REPORT...................... 58
   THE DEPARTMENT OF JUSTICE’S MANAGEMENT OF
THE FEDERAL EMPLOYEES’ COMPENSATION ACT PROGRAM


Introduction

       The Federal Employees’ Compensation Act (FECA) provides for medical
benefits, income replacement, and certain supportive services to civilian
employees of the federal government with work-related illnesses or injuries,
or in the case of death, survivor benefits to family members. 1 FECA cases
include claims submitted to the Department of Labor (DOL) resulting from a
traumatic injury, occupational disease, illness, or fatality.

     FECA is primarily administered by the DOL’s Office of Workers'
Compensation Programs (OWCP). However, each federal agency, including
the Department of Justice (DOJ), has financial and management
responsibilities for its own FECA cases.

       Each OWCP office employs Claim Examiners who adjudicate
employees’ claims and approve payments to claimants. The costs of FECA
benefits are initially paid by DOL through the Employee Compensation
Fund. 2 At the end of each fiscal year (FY), agencies employing injured
workers reimburse the FECA program for their employees' FECA expenses
through a process known as chargeback. 3 To facilitate the chargeback
process, the OWCP provides each agency with a quarterly chargeback report
listing the cases and charges each agency is responsible for reimbursing.
Chargeback expenses are required to be reimbursed to the Employee
Compensation Fund within 2 fiscal years from the end of each chargeback
period. 4


       1
           The Federal Employees’ Compensation Act is codified at 5 U.S.C. § 8101 et seq.
       2
         The Employee Compensation Fund is an account managed by the Department of
the Treasury that funds all benefit payments through FECA.
       3
         The chargeback process is the process by which the costs from July 1 through
June 30 for work-related injuries, diseases, and deaths are billed to each federal agency
annually. This time period is known and referred to in this report as the chargeback year.
       4
           If an agency receives a chargeback report for the period ending June 2009, which
is the final month of a chargeback year (CBY), payment for it would be included in the
budget submitted to Congress requesting funding for FY 2011. The Employee
Compensation Fund would be reimbursed in FY 2011 once the budget was approved.
Appendix X contains a detailed description of how the chargeback expenses are
administered.
       The OWCP encourages all federal agencies to actively manage their
workers’ compensation programs. According to the DOL Agency Handbook,
FECA responsibilities for employing agencies include: (1) notifying
employees of their rights and obligations under FECA; (2) questioning or
disputing claims to the OWCP; (3) monitoring the medical status of injured
employees; (4) providing options for light or modified work duties, when
appropriate; and (5) ensuring employees return to work as soon as they are
able. 5 In addition, agencies should establish a record keeping system that
will enable their component to maintain copies of claim forms, medical
reports, correspondence with OWCP, and other materials related to each
claim.

       While all federal agencies have the ability to question a claim filed by
an employee, only OWCP has the authority to deny a claim. In addition,
OWCP has the authority to request second medical opinions by other
physicians under circumstances including: (1) to evaluate an employee’s
medical condition, (2) to evaluate the original medical prognosis, or (3) to
justify continuing an employee’s entitlement to FECA benefits. Although
FECA does not address an agency’s right to obtain a second medical opinion,
Office of Personnel Management (OPM) regulations grant components
authority to arrange for additional medical examinations of a FECA claimant
by a physician of the component’s choice, at the agency’s expense. 6

      The Department of Labor OWCP reports that the FECA program
currently provides workers' compensation coverage to 3 million federal and
postal employees for work-related injuries and occupational diseases.
During the fiscal year ending September 30, 2008, the FECA program
incurred expenses in excess of $2.6 billion for work-related injuries and
diseases. Of this total amount, expenses for DOJ totaled more than
$102 million (4 percent) for over 8,500 cases. DOL also reported that over
115,000 new FECA cases were created in FY 2008 throughout the federal
government, with over 4,600 related to DOJ. 7




       5
         OWCP Publication CA-810, Injury Compensation for Federal Employees (January
1999) is referred to as DOL Agency Handbook in this report. This publication is used by
federal agencies and serves as a handbook for the administration of FECA.
       6
           5 C.F.R. § 339.301c (2009).
       7
         U.S. Department of Labor, Occupational Safety and Health Administration, “Federal
Injury and Illness Statistics” for FY 2008, http://www.osha.gov/dep/fap/fap-inj-ill-stats.html
(accessed December 16, 2008).


                                              2

OIG Audit Approach

      The Office of the Inspector General (OIG) initiated this audit to
examine whether DOJ had effective controls to manage its FECA program, to
reduce opportunities for claimant fraud, and to return injured DOJ
employees back to work when appropriate. We focused our audit on the
FECA program in the Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF), Federal Bureau of Prisons (BOP), Drug Enforcement Administration
(DEA), Federal Bureau of Investigation (FBI), and U.S. Marshals Service
(USMS) because these DOJ components accounted for 95 percent of DOJ’s
FECA program costs and had the largest number of claims as of June 30,
2008.

       To review the overall management of the DOJ FECA program, we met
with officials from the Justice Management Division (JMD), which serves as
the liaison between the DOL and DOJ on FECA. During our audit, we also
interviewed the DOL Deputy Director of the Division of Federal Employees’
Compensation to obtain a general overview of DOL operations and
requirements for the FECA program.

       In addition, we conducted field work at the headquarters offices of the
ATF, BOP, DEA, FBI, JMD, and USMS. FECA case files were not always
maintained at these headquarters offices; therefore we conducted on-site
field visits to BOP Florence, Colorado, and Coleman, Florida, along with two
USMS district offices in the Southern District of New York and the Northern
District of Texas. Our audit reviewed case files, laws and regulations, the
component’s return to work practices, and their internal controls. We also
conducted interviews with key personnel and analyzed the data presented
throughout this report.

      A detailed description of our audit objective, scope, and methodology
is presented in Appendix III.

Results In Brief

      We concluded that DOJ lacks effective controls to reduce risk for
waste, fraud, and abuse in its FECA program, and to return employees back
to work when appropriate.

      We found that, in comparison to other agencies, DOJ had relatively
high rates of injury, with an average rate of 4.53 per 100 employees from
FYs 2005 to 2008, ranking fourth out of 29 major federal agencies. In
addition, DOJ’s overall benefit expense of $102 million for FY 2008 ranked
seventh out of those 29 agencies. DOJ had average annual increases of


                                      3

$6.4 million from FY 2000 through 2005, thereby ranking third in highest
benefit increases of the top 10 agencies receiving FECA benefits during that
time period.

      Of the DOJ components we reviewed, the ATF and DEA had the highest
average cost per FECA case, at approximately $14,700 and $13,000,
respectively. Special Agents and Correctional Officers were the two job
series with the highest occurrences of job-related injuries.

      We determined that most of DOJ’s costs were associated with cases
open for longer than 3 years. Although the long-term cases comprised
6 percent of the total number of FECA cases, the costs of these long-term
cases were equal to over half (54 percent) of total DOJ FECA expenses.

       We also found that inadequate controls over the FECA program led to
ineffective monitoring of FECA cases. With the exception of the BOP and the
FBI, DOJ components we audited were generally reactive rather than
proactive in their monitoring of FECA cases. We also found that of the case
files we selected to review from the components, claim forms were missing
in 21 percent of the cases and entire case files were not available for our
review in an additional 15 percent of the cases. The DEA was missing
48 percent of the case files we selected for review. By contrast, the BOP
had all of the case files we requested. Without the necessary documentation
related to FECA cases, DOJ FECA Specialists are unable to make fully
informed decisions regarding these cases. 8

       DOJ FECA case files we reviewed often did not have evidence of
second medical opinions (73 percent) or medical updates (34 percent).
While second medical opinions are not required in all cases, these
examinations are beneficial in evaluating cases where employees have some
level of work capability. No DOJ component we reviewed had required
second medical opinions for FECA cases as allowed by OPM regulations,
although the FBI did request the DOL to obtain second medical opinions in
some cases. This suggests that DOJ components were not proactive in a
core area of responsibility in the FECA program, which is to evaluate and
monitor an employee’s medical condition in order to return the employees
back to work when appropriate.

     Returning employees back to work after a prolonged injury can be a
major challenge for FECA Specialists and supervisors, particularly for Special


       8
          “FECA Specialist” is the term used collectively in this report to identify the DOJ
employee assigned to manage its FECA program. However, these employees have different
position titles within their components.


                                             4

Agents that are unable to return to their previous duties because of medical
restrictions related to work performance. We found that some Special
Agents were reluctant to accept light duty assignments as non-agents
because it would result in the loss of eligibility for the 20-year retirement
and extra 1 percent retirement pension that Special Agents receive. We also
found that FECA claimants who are Special Agents are resistant to returning
to light duty non-agent assignments, which generally consist of
administrative duties and office work, because that work is seen as less
prestigious than performing as a Special Agent conducting investigations.

     While the FBI and BOP had an established procedure for returning
employees to light duty assignment, the ATF, DEA, JMD, and USMS did not.
We found that the BOP was the most effective DOJ component in providing
temporary light duty assignments.

      All of the DOJ components we reviewed only monitored cases that
were relatively new and where the employee was most likely to return to
work. We believe that a review of older cases is important since medical
conditions may improve over time and employees may reach a point where
they could return to work in some fashion and contribute to the components’
missions.

      Although each DOJ component received an electronic file of the
chargeback report on a quarterly basis, we did not find any evidence that
these reports were reviewed. 9 In addition, we found several cases in the
chargeback report that were incorrectly assigned to the USMS when those
cases actually belonged to another federal agency. Chargeback report
reviews by the components are necessary to avoid improper payments being
charged to DOJ and to reduce the risk for potential abuse and fraud.

      We also found that the ATF, DEA, and USMS were not actively
pursuing potential abuses or fraud concerning FECA claims. ATF, DEA, and
USMS FECA Specialists told us that they believed there were no fraudulent
cases in the components because the integrity of the personnel and the
desire to return to work minimizes the risk for fraudulent claims. However,
we concluded it is not sufficient to rely on the integrity of all personnel to




      9
        Chargeback reports are prepared by the OWCP each calendar quarter and contain
the summary of FECA expenses by case number within DOJ components.


                                          5

prevent any abuse. 10 As discussed in the report, these components were
failing to properly monitor their case files and thus could be missing
important indicators of fraud or abuse that should be further investigated.

       We believe a more proactive case monitoring approach, including case
file reviews, obtaining second medical opinions and medical updates,
establishing return to work policies, and more consistent monitoring of
chargeback reports, could reduce the long-term costs of DOJ’s FECA cases.

      As a result of our audit, we made five recommendations to improve
the management of DOJ’s FECA program. These recommendations include
developing a procedure to ensure that all FECA cases have an employee case
file maintained and that minimum criterion is developed for completing
periodic reviews of the case files. In addition, we recommend that DOJ
components ensure that periodic medical updates are obtained and
evaluated, as well as develop processes to monitor case files for return to
work opportunities or light duty assignments. We also recommend that a
procedure be established to ensure all components review the quarterly
chargeback reports and identify errors to the OWCP for corrective action.
These recommendations, as well as background information about the FECA
program, are discussed in more detail in the following sections of this report.

Background

       According to the OWCP, FECA is a disability compensation program
that seeks to protect the interests of eligible workers, employers, and the
federal government by ensuring timely and accurate claims adjudication and
provision of benefits to federal employees who suffer from work-related
injuries or illnesses. The OWCP and its 12 district offices located throughout
the United States administer the FECA program. Each office employs Claims
Examiners who adjudicate federal employees’ claims and approve payments
to claimants within a geographic region. Each OWCP district office maintains
the official case files for its respective FECA claims and makes electronic
copies available to FECA Specialists from all federal agencies to review by
request. A list of the OWCP District Offices and geographic regions is
provided in Appendix VI.


       10
          This conclusion is supported by a Government Accountability Office (GAO) report,
which found that the FECA program was vulnerable to improper payments and concluded
that the OWCP relied on unverified, self-reported information from FECA claimants. In
addition, GAO reported that FECA claimants receiving lost wage benefits often failed to
notify OWCP of their return to work in order to stop future wage loss payments.
U.S. Government Accountability Office (GAO), Federal Workers’ Compensation Data and
Management Strategies, Highlights Section, 3.


                                            6

      When a federal employee becomes injured or ill as a result of federal
duties and seeks FECA benefits, the employee or representative must submit
one of three DOL claim forms to the employing agency. 11 The employing
agency then submits the claim form within
10 days to the OWCP district office for       Exhibit 1:

processing and adjudication. Once the                                   Employee
                                                                    Submits Claim
claim is submitted, agencies employing
FECA claimants may question a claim by
submitting documentation from                                            OWCP
supervisors, witnesses, or others involved                           Receives and
                                                                      Adjudicates
in the employee’s claim. 12 The OWCP                                     Claim
Claims Examiner has authority to accept or
deny a FECA claim. If the Claims Examiner
denies an employee’s claim, several appeal                                             Claim
options are available through the DOL,                C laim
                                                    De nie d by
                                                                                     Accepted by
                                                                                       OWCP
including reconsideration of the case by              O WCP

another Claims Examiner or by the DOL                           Employee Appeals for
Hearings and Review Board, with a final                          Additional Review   OWCP Pays
appeal to the Employee Compensation                                                  Benefits $$$

Appeals Board. 13 If the claim is accepted
by the DOL, the employee is eligible to                            Claim De nial
                                                                    Affirmed by
receive benefits under the FECA program.                              O WCP




      Exhibit 1 depicts an abbreviated
claim process overview. 14 Appendix V                                  Final Disposition
depicts a detailed overview of the FECA
                                                                           of Claim

process from the time of injury to the
                                                   Source: OIG depiction of the chargeback process
acceptance or denial by the DOL.

    Once accepted, FECA benefits can include payment for wage-loss
compensation, medical care, and vocational rehabilitation services.
Compensation benefits are paid directly to injured employees by the OWCP.
       11
           The DOL claim forms used are the CA-1 (Traumatic Injury), CA-2 (Occupational
Illness or Disease), or CA-5 (Death). See Appendix VIII for examples of the CA-1 and CA-2
claim forms.
       12
            20 C.F.R. § 10.110 – 10.118.
       13
          The Board consists of three permanent judges appointed by the Secretary of
Labor, one of whom is designated as Chief Judge and Chairman of the Board.
       14
          The figure depicts the last step as “Final Disposition of Claim” because there are
multiple outcomes that may result from the FECA process, including return to work,
termination, vocational rehabilitation, and the employee indefinitely remaining on FECA with
or without a wage earning capacity. See Appendix V for a detailed flowchart for the FECA
claims process.


                                              7

Wage-loss compensation benefits are determined based on the employee’s
regular salary and number of dependents. Injured employees without
dependents receive two-thirds of their current gross salary, tax-free, while
injured employees with one or more dependants receive three-fourths of
their current gross salary, also tax-free. These compensation benefits are
subject to annual cost-of-living increases. Payments for medical care and
rehabilitation, including vocational services, are paid directly to the provider
after OWCP reviews the documentation submitted.

       Claims for compensation are initially accepted by the OWCP as “daily
roll” status payments. The payments under daily roll status are paid to
claimants for an initial period of wage loss. OWCP bases its initial decision to
place a claimant on daily roll status contingent on factors such as the type
and severity of injury and medical diagnosis. However, for claimants to
continue receiving daily roll status payments, periodic medical evidence is
necessary indicating that the injured employee will not be able to return to
work over that period. If an employee’s disability continues for an extended
period of time beyond the initial period anticipated, the OWCP Claims
Examiner will consider changing the status of the case to “periodic roll” for a
long term disability if sufficient additional medical evidence is provided.
With this change in status, the OWCP pays wage-loss compensation
automatically every 28 days. This payment process continues indefinitely
until new medical evidence is received from the medical doctor that shows
the employee’s condition has improved enough to return to work in some
capacity. The frequency and extent of medical evidence for periodic roll
cases is contingent on the nature of the employee’s disability and the
discretion of the DOL Claims Examiner.

Prior Reports on the FECA Program

       We identified 10 prior reports related to FECA issued by other federal
OIGs (8 reports) and the Government Accountability Office (GAO)
(2 reports) from FYs 2002 through 2008. Some of the most common issues
described in these reports were case management issues, such as untimely
filing of claim forms, lack of monitoring the chargeback reports, and lack of
return to work strategies. 15

       A February 2008 GAO audit of the OWCP found that it did not
sufficiently emphasize preventing, detecting, and recovering improper
payments; did not ensure that overpayments were collected in a timely



       15
          See Appendix IX for a more detailed comparison of the issues noted in this report
and other selected OIG reports.


                                             8

manner; and did not take advantage of opportunities for recovering
overpayments. 16

DOJ’s Management of the FECA Program

       Management of the FECA program in DOJ is the responsibility of the
Justice Management Division and the DOJ components where the FECA
claimants are located. A DOJ Order designates the Deputy Assistant
Attorney General, Human Resources and Administration, as responsible for
the Office of Workers’ Compensation activities in DOJ. 17 The JMD Director of
Facilities and Administrative Services Staff is the primary point of contact for
the DOJ FECA program. JMD’s Office of Workers’ Compensation is
responsible for providing chargeback reports to components, offering general
FECA training and guidance to DOJ components for injury claims,
maintaining user access to the information system DOJ uses for managing
FECA claims, and serving as the liaison between DOJ and the DOL.

       DOJ component heads are specifically responsible for designating a
personnel or safety officer (FECA Specialist) to manage their component’s
worker compensation program. According to the DOL, each FECA Specialist
is responsible for:

      •	      developing and maintaining employee medical files containing a
              record of each injury or disease;

      •	      monitoring cases for compensation and assisting management to
              challenge claims for which there is no basis;

      •	      tracking pending and approved cases, including continuation of
              pay and ensuring compliance with agency and DOL
              requirements;

      •	      reviewing active cases and associated costs, and maintaining
              contact with the employee to determine the earliest practical
              date for the employee’s return to work;

      •	      assisting management in structuring and providing restricted or
              limited duty assignments to employees who suffer from job-
              related diseases or injuries;

      16
         U.S. Government Accountability Office, Federal Workers’ Compensation, Better
Data and Management Strategies Would Strengthen Efforts To Prevent and Address
Improper Payments, GAO-08-284, (February 2008), Highlights Section.
      17
           DOJ Order 1200.1, Chapter 6-1, Workers’ Compensation Program.


                                           9

      •	       examining FECA chargeback bills to ensure that an agency pays
               only for cases that involve its eligible employees and that any
               bills submitted by its employees are forwarded to the DOL in a
               timely manner;

      •	       assisting management and employees in determining the causes
               of accidents and illnesses, and eliminating or mitigating these
               causes; and

      •	       serving as a liaison between an agency component and the
               OWCP on all non-medical related matters.

      All DOJ components audited had at least one full-time FECA Specialist
assigned to work at the components’ headquarters. The number of full-time
FECA Specialists and active cases by component are identified in Exhibit 2.

       We found significant differences in the way these DOJ components
manage their FECA programs. For example, the ATF, DEA, FBI, and JMD
used centralized operations, and FECA case files are the responsibility of the
headquarters personnel. These components’ field offices forward FECA
claims to headquarters for submission to the DOL. In contrast, the BOP and
USMS maintain decentralized operations where individual personnel assigned
to each of the 114 BOP facilities and 94 USMS district offices submit claims
directly to the DOL and are responsible for the case files locally.

              EXHIBIT 2: DOJ FECA PERSONNEL AND CASES
                         CHARGEBACK YEAR 2008
                             Full-Time FECA  Number of
                 COMPONENT     Specialists  Active Cases
                ATF                  2                575
                BOP                  2              5,740
                    18
                DEA                  4                740
                FBI                  5              2,037
                JMD                  1                583
                USMS                 1                873
                TOTAL                15            10,548
                  Source:   OIG interviews with DOJ FECA Specialists and
                            analysis of chargeback reports




      18
           Three of the four FECA Specialists for the DEA were contractors.


                                             10

Injury Case Rates and Total Cost

       According to statistics from the U.S. Department of Labor’s
Occupational Safety and Health Administration (OSHA), DOJ had a total
injury and illness case rate of 4.31 per 100 employees in FY 2008. 19 Our
analysis of FYs 2005 through 2008 data published by OSHA indicated that
DOJ had the fourth highest case rate average per employee for injuries and
illnesses out of 29 agencies. Exhibit 3 lists the case rates for each fiscal
year and the average of all of the years for the 29 federal agencies.




     19
          OSHA, “Federal Injury and Illness Statistics” for FY 2008.


                                             11

        EXHIBIT 3: FEDERAL INJURY AND ILLNESS CASE RATES

                       PER 100 EMPLOYEES

              FOR FISCAL YEARS 2005 THROUGH 2008

      Department or Agency                        2005    2006   2007   2008    Average
 1    Department of Homeland Security             14.02   9.30   8.17   7.12    9.65
 2    U. S. Postal Service                        7.22    6.87   6.66   6.53    6.82
 3    Department of the Interior                  6.70    6.27   6.41   6.64    6.51
 4    Department of Justice                       4.93    4.71   4.18   4.31    4.53
 5    Department of Veterans Affairs              4.62    4.24   4.06   4.08    4.25
 6    Department of Agriculture                   3.65    3.67   3.92   5.53    4.19
 7    Tennessee Valley Authority                  3.80    4.06   3.17   3.18    3.55
 8    Department of the Army                      3.67    3.37   3.68   3.38    3.53
 9    Department of the Navy                      3.23    3.07   2.93   2.87    3.03
 10   Department of the Air Force                 3.09    2.80   2.78   2.91    2.90
 11   Department of Energy                        1.96    2.03   2.26   2.93    2.30
 12   Department of Defense – Other               2.51    2.38   1.69   2.37    2.24
 13   Department of Transportation                2.13    2.02   2.28   2.02    2.11
 14   Department of Labor                         2.23    1.98   1.94   1.95    2.03
 15   Department of Health and Human Services     1.90    1.70   1.59   1.47    1.67
 16   Small Business Administration               1.92    1.91   1.07   1.35    1.56
 17   Social Security Administration              1.72    1.54   1.48   1.31    1.51
 18   General Services Administration             1.51    1.33   1.25   1.19    1.32
 19   Department of Treasury                      1.44    1.28   1.33   1.23    1.32
 20   Office of Personnel Management              1.65    1.13   1.08   0.80    1.17
 21   Department of Commerce                      1.23    1.17   1.06   1.06    1.13
 22   Department of State                         1.04    1.04   1.03   1.06    1.04
 23   Department of Housing and Urban
      Development                                 1.12    0.84   0.96   1.12    1.01
 24   Department of Education                     1.05    0.80   0.67   1.17    0.92
 25   Environmental Protection Agency             0.77    0.73   0.74   0.70    0.74
 26   Nuclear Regulatory Commission               0.74    0.55   0.64   0.48    0.60
 27   National Science Foundation                 0.38    0.68   0.52   0.44    0.51
      National Aeronautics & Space
 28   Administration                              0.49    0.48   0.57   0.45    0.50
 29   Agency for International Development        0.26    0.32   0.28   0.76    0.41
      Other Agencies                              0.97    0.77   0.66   0.99    0.85
Source:	 OIG analysis of Occupational Safety and Health Administration, “Federal Injury and
         Illness Statistics,” for FYs 2005 through 2008,
         http://www.osha.gov/dep/fap/fap-inj-ill-stats.html (accessed December 16, 2008).

       According to DOL statistics, DOJ ranked seventh among the 29 federal
 agencies identified by the DOL, incurring a total FECA expense of more than
 $102 million during FY 2008. Exhibit 4 shows the top 10 federal agencies
 incurring FECA benefit expenses.




                                                12

            EXHIBIT 4: TOTAL ANNUAL FECA BENEFIT EXPENSE
             TOP 10 RECIPIENTS OF FECA BENEFITS FOR FY 2008 20
                                         in millions




Source:	 OIG Analysis of DOL OIG, Special Report Relating to the FECA Special Benefit
         Fund, Report Number 22-09-001-04-431, (October 27, 2008), 23-24.

      DOJ also had the third highest average annual increase in FECA costs,
approximately $6.4 million per year, of the top 10 agencies between
CBYs 2000 and 2005. Only the U.S. Postal Service and the Department of
Homeland Security had larger increases with $34.8 million and $27.2 million,
respectively. Exhibit 5 lists the top 10 federal agencies receiving FECA
benefits and the average annual increase in FECA expenses for each agency.




       20
         Appendix VII contains the list of all 29 federal agencies tracked by the DOL in the
Schedule of Benefit Expense for FY 2008.


                                            13

         EXHIBIT 5: ANALYSIS OF CHANGES IN FECA BENEFIT EXPENSES

                    TOP 10 RECIPIENTS OF FECA BENEFITS

      INCREASES/DECREASES PER YEAR FOR FISCAL YEARS 2000 THROUGH 2005 21
                                                in thousands
                             2001           2002           2003          2004          2005          Average
                             Change         Change         Change        Change        Change        Annual
Federal Agency               from 2000      from 2001      from 2002     from 2003     from 2004     Change
U.S. Postal Service           $ 54,208       $ 64,681       $ 61,677      $    6,069    $ (12,804)   $ 34,766
Dept. of Homeland Security    $    N/A       $    N/A       $    N/A      $ 37,114      $ 17,253     $ 27,184
Dept. of Justice              $    7,324     $    4,423     $    N/A      $    7,880    $    6,079   $ 6,427
Dept. of Veterans Affairs     $    2,688     $    5,703     $    5,703    $ (1,924)     $      779   $ 2,590
Dept. of the Army             $    2,230     $    5,613     $    6,466    $ (4,048)     $ (2,590)    $ 1,534
Dept. of Agriculture          $    1,868     $    2,813     $    2,749    $ (3,067)     $    (564)   $    760
Dept. of Defense              $      (36)    $    (873)     $    1,541    $ (1,613)     $    (820)   $ (360)
Dept. of the Air Force        $    5,972     $ (1,568)      $    2,971    $ (6,280)     $ (4,713)    $ (724)
Dept. of the Navy             $    5,296     $    1,369     $ (2,789)     $    (316)    $ (7,354)    $ (759)
Dept. of Transportation       $    2,620     $    2,160     $ (7,034)     $ (2,023)     $       28   $ (850)
All Other Agencies           $    22,294    $    6,029     $ (21,931)    $ (15,296)    $     (883)   $ (1,957)
 Source:	 OIG analysis of U.S. Department of Labor Office of Worker’s Compensation, Annual Report to
          Congress FY 2005, (September 20, 2008), http://www.dol.gov/esa/owcp/05owcpmx.pdf
          (accessed April 2, 2009), 59.

             Generally, DOJ FECA Specialists we interviewed stated that they
       believed the reason why DOJ has a high ranking among federal agencies is
       due to the nature of law enforcement operations and the daily exposure to
       high risk situations. Our analysis of the 2006 through 2008 chargeback
       reports indicated that correctional officers and Special Agents accounted for
       the majority of injuries in DOJ. In our opinion, ineffective management of
       the FECA program may also have contributed to the high costs.

             We found that DOJ’s expenses between CBYs 2006 and 2008 further
       increased at an average annual rate of 5 percent. Compensation expenses
       comprised an average of 71 percent of DOJ’s total FECA costs during
       CBY 2006 through 2008, while medical expenses accounted for the
       remaining 29 percent in FECA costs. Exhibit 6 illustrates the general




               21
                 Our analysis of annual average change of FECA benefits for the Department of
       Homeland Security only included 2003 through 2005 since DHS was created in 2003. Our
       analysis of DOJ excluded CBY 2003 because we could not identify and exclude changes in
       FECA claims attributed to the transfer of the Immigration and Naturalization Service to the
       DHS or the ATF to DOJ.


                                                     14

increase of costs associated with compensation expenses and medical
expenses. 22

      EXHIBIT 6: DOJ COMPENSATION AND MEDICAL EXPENSES
              CHARGEBACK YEARS 2006 THROUGH 2008 23
                                           in millions




            Source:	 OIG analysis of DOJ chargeback reports for CBYs 2006

                     through 2008


      We concluded that the increase in FECA costs could not be attributed
to new cases because the number of injuries within DOJ generally remained
constant during the period of our review. We also found that the majority of
the costs associated with DOJ FECA expenses were for claims exceeding
1 year. Moreover, in these cases where claims exceed one year, the medical
costs associated with the injuries or diseases were generally low in relation
to the compensation payments.

      While all DOJ components can have FECA expenses, 95 percent of
DOJ’s total FECA expenses were from employees from the ATF, BOP, DEA,
FBI, and USMS. For chargeback year 2008, the Bureau of Prisons comprised
55 percent of DOJ’s FECA expenses. Exhibit 7 illustrates a comparison




       22
         Medical expenses refer to costs associated with doctors, hospitals, medical
treatment, and prescriptions.
       23
          The Chargeback years 2006 through 2008 were from July 1, 2005, through
June 30, 2008.


                                              15

between the percentages of personnel to the percentages of total FECA
benefit expenses for each of the five DOJ components we reviewed. 24

        EXHIBIT 7: FECA BENEFIT EXPENSES AND PERSONNEL
          PERCENTAGE OF TOTALS FOR CHARGEBACK YEAR 2008




           Source:	 OIG analysis of 2008 DOJ chargeback report and
                    employee data from OSHA, “Federal Injury and Illness
                    Statistics” for FY 2008 (Final).



      Analysis of the injury case rates and cost by DOJ component
shows that the FBI and the USMS had relatively low average case
costs and ATF and DEA had the highest. The ATF stated that case
costs are high because of the nature of the work of ATF agents and
because of the large number of long term claimants over age 60,
thereby making it difficult to return those employees back to work.
The DEA FECA Specialist stated that the majority of their case costs
are from Special Agents, which receive a higher gross salary and cause
the case costs to be high. Exhibit 8 shows the components we audited
and how each compares based on the cost per case.




      24
          These five components have 80 percent of the employees in DOJ. In addition, the
majority of employees at these five components are involved in law enforcement duties,
which DOJ officials say result in higher injury rates.


                                             16

               EXHIBIT 8: TOTAL CASES AND EXPENSES
                    FOR CBY 2008 BY COMPONENT
                                                           Average
               Component    Cases      Total Expense    Cost per Case
              ATF               575   $       8,453,988  $      14,703
              DEA               740   $       9,627,970  $      13,011
              BOP             5,740   $      54,322,828  $       9,464
              Other DOJ         583   $       5,417,772  $       9,293
              USMS              873   $       6,321,574  $       7,241
              FBI             2,037   $      14,702,550  $       7,218
              TOTAL DOJ     10,548    $      98,846,682  $       9,371
             Source: OIG analysis of DOJ’s CBY 2008 chargeback report

       Because of DOJ’s relatively high rates of injury, benefit expenses, and
average expense increases, we believe that DOJ management needs to more
effectively manage and monitor the FECA program to ensure that the FECA
funds are spent appropriately. We determined that DOJ’s, inadequate
controls over the FECA program resulted in ineffective monitoring of FECA
cases. In our opinion, DOJ must improve its internal control policies
governing the FECA program, the management of case files, the monitoring
of FECA claimants’ medical conditions, and the consistent review of the
quarterly chargeback reports. If implemented effectively, these efforts
would improve DOJ’s opportunities for returning employees to work when
appropriate; minimize the potential for waste, fraud, and abuse; and reduce
the risk for unnecessary long-term costs.

Ineffective Monitoring of DOJ FECA Cases

      To evaluate the effectiveness of DOJ’s monitoring of its FECA program,
we tested whether DOJ components were adequately: (1) monitoring FECA
claims by reviewing case files, (2) maintaining complete case files with
essential claim-related information, (3) monitoring the medical status of
FECA claimants by requesting medical updates and second opinions,
(4) applying appropriate efforts to return previously injured employees back
to work, and (5) monitoring chargeback reports to identify questionable
cases and costs.

      We judgmentally selected and tested a combined total of 389 FECA
cases from the DOJ components we audited. We tested multiple attributes
in each case file, such as copies of the initial DOL claim form, the presence
of authorizing signatures, copies of medical status reports, witness
statements or conflicting physician reports, and any evidence of the
employee’s return to work. We also conducted individual interviews with
each FECA Specialist assigned to the DOJ components we tested. During our



                                        17

audit, we assessed whether controls were in place, appropriate return to
work efforts were consistently pursued, and if fraud indicators were present.

       Failure to Monitor Cases

      We found that most of the components we reviewed did not effectively
monitor FECA cases. With the exception of the BOP and the FBI, the
components we audited were generally reactive rather than proactive in
their monitoring of cases. The ATF, DEA, and USMS relied heavily on the
DOL for overall case monitoring in place of conducting their own monitoring.
For example, the FECA Specialist at USMS rarely communicated with USMS
personnel at District Offices we visited. As a result, the USMS personnel in
the District Offices did not fully understand their FECA monitoring
responsibilities. We also found that the ATF and DEA’s case monitoring was
primarily based on responding to questions or inquiries from employees or
the DOL and did not focus on monitoring cases to ensure FECA claims were
appropriate. 25

       In contrast, we found the BOP had established proactive procedures
for case file monitoring and light duty assignments and for offering
temporary light duty assignments to its employees who were not able to
fully return to work because of their injuries. In addition, the FBI FECA
Specialist, who previously was employed as an OWCP Claims Examiner, was
more proactive in obtaining and reviewing medical documentation and
second medical opinions when necessary from the DOL to assist in returning
FBI employees back to work after an injury. However, while the BOP and
FBI were doing a better job in monitoring FECA cases than other
components we reviewed, we believe the BOP and FBI still could improve
their monitoring of FECA cases by ensuring case files are complete and
contain updated medical documentation to assist in determining when
employees may be returned to work, and also by providing guidance for
conducting periodic reviews of the quarterly chargeback reports.

       The deficiencies in each component’s monitoring efforts that we
identified were caused to some extent by the lack of effective DOJ
procedures to ensure that monitoring FECA cases was thoroughly performed.
We recommend that DOJ develop a required procedure identifying a
minimum set of criteria describing how each FECA Specialist should complete
periodic case file reviews.


       25
           After reviewing a draft of our report, the ATF stated that it has established a
policy to review 10 percent of its cases each year. The ATF also stated that it has reviewed
20 percent of its cases this year. However, for the cases we tested during our review, we
did not find evidence of ATF review.


                                             18

       Inadequate Recordkeeping

      To adequately monitor the FECA program, DOJ components must
maintain adequate records on each FECA claimant. The DOL Agency
Handbook advises all FECA Specialists to establish a recordkeeping system
that will maintain copies of claim forms, medical reports, correspondence
with OWCP, and other materials related to each claim. The DOJ FECA
Specialists we interviewed agreed that their monitoring responsibilities
included maintaining case files. However, we found that FECA case files
often were missing and that case files available for review often were
missing critical documentation, such as a second medical opinion or medical
update. These issues are discussed in more detail below.

       Missing Case Files

      We found that 15 percent of active DOJ FECA case files we selected for
review were unavailable. 26 According to FECA Specialists interviewed, these
case files did not exist or were archived and not readily available for periodic
review and monitoring.

      In our opinion, the cases listed on the current chargeback report
should be maintained and easily available to allow effective monitoring.
Exhibit 9 shows the number of case files missing for each DOJ component.

                     EXHIBIT 9: MISSING CASE FILES 27
                     Number of Case
                      Files Selected Missing Case     Percentage of
   Component            for Review       Files     Missing Case Files
 ATF                         79            3               4%
 BOP                        101            0               0%
 DEA                        112           54              48%
 FBI                         84            5               6%
 JMD                         29            4              14%
 USMS                        53            3               6%
 TOTAL                      458           69              15%
Source: OIG analysis of sample cases

     We determined that the components listed in Exhibit 9, with the

exception of BOP, relied exclusively on the OWCP Claims Examiner to


       26
         For the purposes of our audit, the OIG considered all FECA cases listed in the
CBY 2008 chargeback report as active.
       27
         All of the BOP case files in our sample were available for review at BOP 

headquarters and in Florence, Colorado, and Coleman, Florida.



                                             19

monitor and provide oversight of the missing cases. Missing case files
render FECA Specialists unable to monitor employee medical conditions,
current medical updates, and any correspondence between DOJ, OWCP, and
the injured employee. Because of the lack of case files, FECA Specialists
were unaware of what the employee’s medical restrictions were and whether
they could be accommodated to allow a return to work.

     In our opinion, each DOJ component should establish and maintain an
employee case file on all active FECA cases.

       Missing Claim Forms

      In examining the case files in our sample that were available for
review, we found that some component case files were missing critical
documentation such as a copy of the initial claim form. This missing
documentation makes it difficult for FECA Specialists to monitor cases.

      During our testing, we found 80 of 389 (21 percent) case files lacked
the basic DOL claim form initiating FECA benefits. Exhibit 10 shows the
number of missing claim forms by component. Reasons provided by DOJ
FECA Specialists for the missing information were that the claim forms were
too old, not retained by component personnel, not forwarded to the
component headquarters, or lost.

             EXHIBIT 10: MISSING DOJ CLAIM FORMS
                                 Number of    Percentage of
                Number of Case  Missing Claim  Missing Claim
   Component     Files Reviewed    Forms          Forms
 ATF                    76            19           25%
 BOP                   101            1             1%
 DEA                    58            16           28%
 FBI                    79            20           25%
 JMD                    25            8            32%
 USMS                   50            16           32%
 TOTAL                 389           80            21%
Source: OIG analysis of sample cases

      Claim forms contain essential data related to the initial claim that may
not be available from any other source, such as a narrative description of
the cause and nature of the injury. Without a record of the essential facts in
a case file, a FECA Specialist will not be able to make fully informed
decisions regarding that case.



                                       20

Lack of Second Medical Opinions and Medical Updates

      Federal employees involved in work-related incidents are entitled to
have medical treatment by a licensed physician of their choosing paid for by
the FECA program. According to FECA, DOJ management may not interfere
with an employee’s right to choose a physician, nor may DOJ require
employees to go to a physician who is employed by, or under contract to the
component, before employees seek treatment from their own physician.
According to the DOL Agency Handbook, the employing agency may contact
the attending physician to obtain additional information about the
employee’s medical condition or capability to perform work. DOJ FECA
Specialists can use this information to identify employees who may be able
to return to work at full capacity or light duty.

      As discussed in the introduction of this report, the OWCP has the
authority to request a medical examination to obtain a second opinion by a
physician it designates to evaluate the original medical prognosis or to
determine whether an employee remains entitled to FECA benefits. In
addition, Office of Personnel Management (OPM) regulations grant federal
agencies authority to arrange for a second medical opinion through an
additional medical examination of an employee who files a FECA injury claim
by the agency’s designated physician. 28 While the OWCP may use these
second medical examinations both to evaluate the employee’s initial claim
and to determine whether the employee is capable of returning to work,
federal agencies may only use these second medical examinations to assess
the capability of returning employees back to work.

        Our testing of case files revealed that 285 out of 389 (73 percent) files
did not contain any evidence of a second medical opinion. The remaining
104 cases (27 percent) containing evidence of second medical opinions were
all initiated by the OWCP Claims Examiner, not the DOJ FECA Specialist.
According to the FECA Specialists we interviewed, DOJ components did not
initiate second medical opinions, either because of the additional expense of
the examination or because some FECA Specialists did not know they were
authorized to initiate such requests. 29

      While second medical opinions are not required in all cases, these
examinations can be beneficial in evaluating cases where the record
indicates the employee has some potential of eventually returning to work.
In our opinion, DOJ components should not be reluctant to seek second

      28
            5 C.F.R. § 339.301c (2009).
      29
            The costs associated with the second opinion are paid by the agency that requests
the exam.


                                              21

medical examinations in these cases, which could result both in returning
experienced and trained personnel to active duty and in reducing long term
FECA expenditures.

     Exhibit 11 depicts, by component, the breakdown of case files without
second medical opinions or medical updates.

 EXHIBIT 11: CASE FILES WITH NO SECOND MEDICAL OPINION OR
                         MEDICAL UPDATE
                               No Evidence of
                Case Files     Second Medical No Medical
   Component    Reviewed          Opinions      Update
  ATF              76                60           16
  BOP             101                82           31
  DEA              58                44           29
  FBI              79                42           25
  JMD              25                23           15
  USMS             50                34           15
  TOTAL           389               285          131
 Source: OIG analysis of FECA case file reviews at DOJ components

      In addition to requesting and reviewing the results of a second opinion
medical examination from the agency’s designated physicians, we believe
FECA specialists also should obtain and review updated medical
documentation. Periodic medical updates about the claimant are necessary
to evaluate whether the claimant’s medical condition has improved enough
to return to work. However, we determined that FECA specialists are not
consistently obtaining this information.

       We identified 131 of 389 (34 percent) case files that lacked any
updated medical documentation describing the medical condition of the
employee. For these 131 cases, which had dates of injuries ranging from
1967 to 2008, the only medical documentation was the initial diagnosis
identifying the injury. We found that the DEA and JMD had a high
percentage (50 and 60 percent, respectively) of case files without a medical
update. By not routinely reviewing the employee’s medical conditions,
components are unable to track the employee’s work capabilities and
determine whether the employee can return to work.

      Promptly returning employees to work when appropriate is important
to prevent waste and abuse in the FECA program. Even partial returns to
duty can save significant FECA expenditures. For example, in one case a
USMS employee was injured on the job and unable to return to his original
assignment. However, the DOL determined the employee could perform


                                         22

some duties and had a wage earning capacity over $26,000 per year despite
his medical condition. Therefore, while the employee continued to receive
FECA benefits, the amount of his benefits was reduced by $26,000.

      On the other hand, a DOJ attorney who was unable to work due to
stress and anxiety since September 2004 had not returned to work as of
May 2009. However, we learned from the JMD FECA Specialist that in 2006,
this employee began hosting a weekly cable TV show while still receiving
$90,000 annually in FECA benefits. While the employee’s television hosting
duties indicated the employee may have been able to at least partially work,
JMD did not coordinate with DOL to determine a possible wage earning
capacity by which the employees’ FECA benefits could be reduced.

      We recommend that DOJ components routinely review the case files to
ensure periodic medical updates are obtained and evaluated for all injured
employees and routinely pursue second medical opinions where appropriate.
Through consistent and effective review of medical documentation, DOJ
FECA Specialists can identify employees who are capable of returning them
to work or can find other employment outside the federal government, which
would reduce the long-term cost accumulation to DOJ.

DOJ’s Return to Work Efforts

      In order to return FECA claimants back to work as soon as appropriate,
FECA Specialists must not only routinely monitor the condition of the injured
employees receiving FECA benefits, they must also coordinate with
component management, the employee, OWCP’s registered nurse, and the
employee’s physician in order to create a light or modified duty assignment
when applicable. We found 136 of the 389 (35 percent) case files selected
for review lacked evidence to support any attempt by component personnel
to return an employee back to work or offer light duty assignments. We
concluded that DOJ missed opportunities to return employees back to work,
thus allowing the FECA benefit expenses to increase while losing employee
experience and production.

     Issues Impacting Return To Work

      Our analysis of the chargeback reports showed that Correctional
Officers and Special Agents were the two job series with the highest
occurrences for work-related injuries in DOJ. FECA Specialists told us that
Special Agents were reluctant to accept non-agent roles because of the loss
of prestige associated with performing non-agent duties and the loss of
retirement benefits they would incur if they returned to non-agent work. For
example, a GS-13, step 5 Special Agent earns a gross salary of


                                     23

approximately $115,440 a year. 30 If injured and unable to return to any
work, with one or more dependents this agent would receive $86,580 tax
free in FECA compensation, or $865,000 over 10 years. If this agent
returned to work as an analyst, at a GS-13, step 5, the agent would be
awarded $172,360 in FECA compensation over 10 years rather than the
$865,000 he was be paid if he did not return to work at all. 31 Thus, by
returning the agent to light duty work, the cost of the agent’s FECA benefits
would be reduced by approximately $700,000. It should be noted that the
agent would receive the same amount of compensation whether he received
full-time FECA compensation because he was unable to return to work or
whether he received a combination of salary and reduced FECA
compensation for returning to work as an analyst.

       Although Special Agents may be reluctant to accept non-agent roles, in
our opinion, this approach should be pursued more aggressively because it
would reduce DOJ’s FECA benefit costs over the long term while continuing
to utilize employees’ expertise and knowledge. 32

       We found that DOJ management faces a difficult situation in returning
employees back to work since claimants may receive more net income from
FECA benefits than from earned wages. This disparity occurs because FECA
benefits are not subject to taxes for federal and state income, social security
and Medicare. Thus, employees may be reluctant to return to work and may
challenge whether they are physically capable of doing so. While it is
difficult to demonstrate that an employee is ready to return to full duty, it is
easier to prove that employees are capable of returning to limited or light
duty assignments.

       Light or Modified Duty Assignments

      According to JMD’s former Director of Workers’ Compensation, the
preferred and most often used method for returning an employee back to
work is for the employee to recover quickly and return to the employee’s

       30
          This example is based on the Office of Personnel Management’s Salary Table
2008, Locality Pay Area Dallas-Fort Worth, effective January 2008, plus 25-percent Law
Enforcement Availability Pay. Dallas, Texas, was used because it represents a reasonable
average for the entire United States.
       31
          The FECA wage loss compensation for returning as an analyst rather than as an
agent would be 75 percent of the difference between the analyst’s base salary and the
agent’s salary with salary enhancements provided to agents as Law Enforcement Availability
Pay.
       32
           According to the DOL Agency Handbook, employees who cannot return to their
original assignment must accept suitable light duties if allowed by their medical restrictions.


                                              24

original assignment without any physical restrictions due to injury. We
found that 95 percent of FECA cases during Chargeback Year 2006 through
2008 were closed within 1 year after the claim was initiated. Generally,
these cases required little or no effort on the part of the FECA Specialists or
the employee’s supervisor.

      Alternatively, if an employee’s physician authorizes a return to work
under limited or restricted duty, the FECA Specialist, along with the
supervisor, may attempt to accommodate the restrictions. A light or
modified duty assignment must be detailed in writing and be well-defined by
the DOJ component, meet the restrictions as prescribed by the physician,
and be approved by the OWCP Claims Examiner. Once the light or modified
duty assignment is developed and approved, the employee has 30 days to
accept or reject the assignment and return to work.

       We found that the DEA, JMD, and USMS did not have written
procedures defining how to fulfill modified, light duty assignments.
However, the supervisors, along with the employee and FECA Specialists,
modified normal job assignments to meet medical restrictions when the
medical information indicated this was appropriate. DOJ FECA Specialists at
the ATF, DEA, JMD, and USMS stated that after employees received a light
duty offer in response to restrictions defined by a physician, the FECA
Specialists would consider excluding additional activities on the light duty
assignment based on additional medical information submitted by the
claimants. FECA Specialists told us this process of proposing light duty and
the employee objecting and submitting additional medical information to
restrict additional assignments may happen multiple times with the same
employee, thereby making it difficult to develop an adequate light duty
assignment.

      The OWCP Deputy Director informed us that if the employee refuses to
accept a legitimate light or modified duty assignment more than three times,
the case should be referred by the DOJ FECA Specialist to the OWCP Claims
Examiner for further review. However, we found that the FECA Specialists
were not documenting when they referred cases to the OWCP Claims
Examiner, and thus we could not determine whether the components
appropriately notified the OWCP when employees refused light or modified
duty assignments.

      Each component we audited gave various levels of attention to the
process of providing light or modified duty assignments. The FBI had a
policy in place to address return to work assignments, but faced difficulties
in assigning Special Agents that were unable to return to full duty. The BOP
had a return to work policy and was proactive in developing temporary duty


                                      25

assignments for their employees. The DEA and USMS did not have
documented policies and the ATF, DEA, and USMS were not proactive in
providing light duty assignments. We concluded the ATF, DEA and USMS
were missing opportunities to return employees to work, thus increasing
FECA benefits over time.

       While in most FECA cases employees recover from injury and return to
work without restrictions, the FBI FECA specialists told us that it is
particularly difficult for a Special Agent who has suffered a work-related
injury or illness to achieve the medical condition necessary to return to duty
as a Special Agent. According to the FBI FECA Specialist, to qualify and
remain as a Special Agent, the employee must continually meet 247 criteria
encompassing physical fitness, vision, hearing, and medical review. The
FBI’s Medical Mandates Board reviews each agent’s qualifications and
medical condition to determine if they are qualified to serve as a Special
Agent. When Special Agents are unable to return to work at the original
position, the FBI FECA Specialist stated there are two alternatives for
temporary work assignments. The first is a temporary alternative work
assignment for any FBI position based on the medical restrictions identified
by the employee’s doctor. The second alternative is an offer of a new non-
agent position, such as an Intelligence Analyst, academy instructor, or
Computer Specialist.

       The FBI FECA Specialist said that finding non-agent jobs for Special
Agents is the biggest challenge, since agents refuse to accept support
positions offered because of the stigma associated with non-agent roles and
the loss of law enforcement retirement benefits. During our review of
79 FECA cases at the FBI we only found 6 examples where the FBI offered
Special Agents alternative work assignments. Out of these six cases, only
one Special Agent accepted an offer to a non-agent support position. The
other five did not accept the alternative assignments to support positions.
In these five cases, the FBI either terminated their employment or the
claimant elected retirement disability. Whether terminated or retired, the
claimants continued to receive FECA benefits.

       The BOP was more proactive in developing temporary light or modified
duty assignments for their employees. The BOP allowed employees to work
in a temporary light duty assignment for up to 6 months, after which time,
each employee met with BOP institution management to evaluate whether
the employee was physically able to return to the original job assignment. If
the condition lasted in excess of 1 year and the employee remained unable
to return to full performance at their original job assignment, the BOP
terminated the employment. In these cases, the terminated employees



                                     26

were eligible to receive full FECA benefits based on lost wages and medical
disability.

      The ATF, DEA, JMD, and USMS did not give the same level of attention
to providing light or modified duty assignments. For two USMS FECA claims
in New York, we found that no case files existed, and we determined that
there was no evidence of the FECA Specialist monitoring these cases and
attempting to return employees to work. One case involved a U.S. Deputy
Marshal whose claim for “back sprain, lumbar region” and “post traumatic
stress disorder” was initially accepted by the OWCP in November 2001. This
31-year old Deputy Marshal did not return to work on his own initiative, nor
did any district personnel attempt to contact the Deputy Marshal regarding
the incident over the ensuing 8 years. The Deputy Marshal continues to
receive FECA benefits and has been paid over $365,800 in benefits since
June 2002.

       The second USMS case with no existing case file involved a USMS
employee who was injured in 1967. We learned from the DOL Agency Query
System (AQS) that the employee had received almost $250,000 in
compensation benefits since 2002. No additional documentary information
was available in AQS prior to August 2002, but the USMS FECA Specialist
said the employee probably received benefits since 1967. This case was
accepted by OWCP for “major depression, post traumatic stress disorder”
and “various urinary and prostate disorders,” and we found no evidence that
this case had ever been monitored. The USMS personnel responsible for the
case told us that the case was too old and the status of that employee was
unknown because no one at the USMS had managed this employee’s case or
reviewed the medical reports to determine if this employee could have
returned to work.

      In addition, during our audit we noted other cases that warranted
additional review:

       •	     An ATF administrative employee submitted an injury claim from
              a fall while entering an elevator in 1985 and had not returned to
              work. The file contained conflicting medical reports and DOL
              terminated benefits in 1999. Subsequently, the employees’ case
              was appealed, and the DOL reversed its termination decision and
              accepted the claim as of July 2006. The employee was still
              receiving benefits as of FY 2008 and had not returned to work. 33



       33
          After reviewing a draft of our report, the ATF stated that it is awaiting updated
medical information for this case.


                                             27

       •      A USMS Deputy Marshal submitted an injury claim for an
              incident that occurred on September 11, 2001, and was listed on
              the CBY 2008 chargeback report. The USMS had no knowledge,
              documentation, or contact with the employee as to his injury,
              condition, or whereabouts.

       •      A DEA Special Agent submitted an injury claim for a contusion of
              the knee with a torn meniscus incurred while on duty. This
              Special Agent has received wage loss compensation since 2003.
              There was no evidence of the agent’s current medical condition
              or work capacity in the case file, nor was there any evidence of
              an effort to return the agent to work in a non-agent capacity,
              such as an Intelligence Analyst.

      As illustrated by the specific instances described above, we found that
DOJ components in our audit only monitored those cases that were relatively
new or those cases where the injured employee was likely to return to work.
The FECA Specialists were less likely to monitor cases that were old or where
the injuries or illnesses were severe. The FECA Specialists at each
component stated that they did not have the time or personnel to review
each and every case file. The DEA FECA Specialist also said that there was
not anything the DEA could do about the older cases since the medical
conditions were established and DOL approved the benefits.

      We believe this approach is ill-advised since medical conditions may
improve over time and employees may reach a point where they could
return to work, either in their original position or a different position,
contribute to DOJ’s mission, and thereby reduce the FECA expense by the
salary they would earn in a new career field.

Monitoring Chargeback Reports

      DOJ FECA Specialists are supposed to use the chargeback reports to
review and correct errors in benefits recorded by the DOL and identify cases
assigned to a DOJ component before the charges are billed. When a DOJ
component believes that a case incorrectly appears on its chargeback report,
the component should verify the claimant’s name to current personnel and
payroll records. 34 If the claimant is not a DOJ employee, the OWCP should
be notified to make corrections to the chargeback report.




       34
          Agency personnel may also review case files at the OWCP district office to resolve
such discrepancies.


                                            28
      We determined that DOJ needs to improve its monitoring of the
chargeback reports. Based on the interviews we conducted and our analysis
of the chargeback reports, we found that each DOJ component received an
electronic file of the chargeback report quarterly. FECA Specialists said that
the chargeback reports were reviewed quarterly to identify new cases and to
ensure that employees are listed in the correct component. However, the
FECA Specialists did not keep any record that these reviews took place.
Moreover, we found serious errors on the USMS chargeback reports that
were not caught by the USMS, which indicated that these reviews were not
taking place. In particular, six of the USMS cases in our audit sample were
incorrectly assigned to the Southern District of New York. The USMS FECA
Specialist later confirmed that four of these employees were employed at
other USMS offices. 35 The USMS FECA Specialist also told us the other two
claimants were not employed with the USMS and were improperly identified
on the chargeback report. 36

     We also selected FECA cases from the chargeback report for the ATF,
BOP, DEA, FBI, and JMD. Although we found other discrepancies at these
components, such as blank or incomplete data fields and missing files, we
found no instances of an employee being charged to the incorrect office.

      Ineffective monitoring of the chargeback reports may result in
substantial FECA expenses being improperly charged and increases the risk
for waste, fraud, and abuse in the FECA program.

Ineffective Monitoring Leads to Potential Abuse and Fraud

       According to FECA, claimants are criminally liable and could be
prosecuted for obtaining benefits fraudulently. DOJ components are
responsible for identifying and pursuing potential criminal violations within
their agency. According to the DOL Agency Handbook, if a questionable
case or fraud is suspected, the component should: (1) review all relevant
case files at the respective OWCP District Office for evidence of fraud,
(2) conduct its own initial internal investigations, and (3) notify the DOL.
DOJ components may also conduct reviews or investigations to identify and
prevent improper benefit payments. According to the DOL, if the beneficiary
is convicted of fraudulently obtaining FECA benefits, in addition to penalties
and possible incarceration for past fraud, entitlement to any future
compensation would be terminated.

       35
          FECA Specialists told us the four employees were assigned to the Eastern District
of New York; New Jersey; USMS headquarters; and the Federal Law Enforcement Training
Center in Glynco, Georgia.
       36
            These two cases incurred FECA expenses totaling approximately $1,200.


                                            29
      During our audit, we found that DOJ components had different
practices for handling allegations of potential fraud and abuse. The BOP and
FBI’s practice was to conduct internal reviews and refer selected cases to the
DOJ OIG Investigations Division for further inquiry as appropriate. JMD’s
practice was to refer cases to the DOJ OIG Investigations Division for further
inquiry as appropriate. During our review period, we did not identify any
cases that were pursued for investigation by the ATF, DEA, and USMS for
possible abuse or fraud. 37 As shown in Exhibit 12, 66 cases were reviewed
internally by BOP, FBI, and JMD and 17 of those cases were referred to the
DOJ OIG Investigations Division for possible fraudulent activity between
FY 2005 through 2008.

      The OIG Investigations Division investigates complaints that involve
criminal issues that are likely to be prosecuted or involve serious non-
criminal misconduct by DOJ employees at the GS-15 or higher grade level.
Cases that do not meet this threshold are referred back to the component as
a management issue. For FECA cases, the OIG Investigations Division often
coordinates with the Department of Labor to determine whether that
Department has investigative interest in the allegations.

                EXHIBIT 12: FECA CASES REVIEWED
                  FOR POSSIBLE FRAUD OR ABUSE
                  FROM FISCAL YEARS 2005 TO 2008
                                                 Prosecution or
                  Cases Reviewed Cases Referred     Awaiting
      Component    By Component    to the OIG    Judicial Action
      ATF                0              0               0
      BOP               48             14               6
      DEA                0              0               0
          38
      FBI               15              2               0
      JMD                3              1               0
      USMS               0              0               0
      TOTAL             66             17               6
      Source: DOJ components and OIG Investigations Division

      As of April 7, 2009, 2 of the 14 cases referred to the OIG by the BOP
resulted in felony prosecutions and restitution orders in excess of $68,000.


       37
          After reviewing a draft of our report, the ATF stated that it submitted a case of
possible abuse or fraud to the OIG Investigations Division.
       38
           The FBI was internally reviewing one case as of April 7, 2009 – this case was not
referred to the OIG Investigations Division.


                                             30
Four additional cases were awaiting judicial action. 39 Of the remaining eight
cases referred by the BOP, two resulted in the employee’s resignation, one
was referred back to the component, and five were determined by the OIG
Investigations Division to be unsubstantiated. 40 The FBI referred two cases
to the OIG, and the OIG referred both back to the component. In the one
case JMD referred to the OIG, the OIG Investigations Division determined
that the allegations were unfounded and that an investigation was not
warranted.

       The ATF, DEA, and USMS FECA Specialists did not refer any cases to
the OIG. Their FECA specialists told us that they believed that none of their
cases were fraudulent because they thought the claimants generally had
integrity and a desire to return to work. However, we believe that it is not
sufficient to rely on the integrity of personnel without taking further steps to
prevent fraud, waste, and abuse. 41 As discussed above, these components
were failing to properly monitor their case files and thus could be missing
important indicators of fraud or abuse that should be further investigated.

Long-term Costs of Ineffective Monitoring

      Ineffective monitoring efforts by DOJ FECA Specialists can permit FECA
expenses to accumulate unchecked. We determined that most of DOJ’s
FECA costs are associated with those cases open for longer than 3 years.
These cases generally had a status of periodic roll, which indicates the
employee suffered a long-term disability and will not return to work for some
time. The OWCP Claims Examiner will consider changing the status of the
case from daily roll to periodic roll when the medical evidence indicates a
long-term disability. Claimants with a status of periodic roll receive
automatic wage loss payments every 28 days. The cases in DOJ’s
chargeback reports designated as periodic roll were further denoted using
the following three codes:
       39
          Cases awaiting judicial action are those that are in trial, are awaiting a decision by
a prosecutor on whether or not to prosecute, or are involved in court proceedings such as
grand jury, discovery, or plea negotiations.
       40
           The results of the cases that were referred back to the component were
determined by the OIG Investigations Division to be component management issues. For
the unsubstantiated cases, the OIG Investigations Division determined that the
investigations did not result in evidence that warranted administrative or legal remedies.
       41
           This conclusion is supported by a GAO report, which found that the FECA program
was vulnerable for improper payments and concluded that the OWCP relied on unverified,
self-reported information from FECA claimants. In addition, GAO reported that FECA
claimants receiving lost wage benefits often failed to notify OWCP of their return to work in
order to stop future wage loss payments. GAO, Federal Workers’ Compensation Data and
Management Strategies, Highlights Section, 3.


                                              31
      •       PR: The claimant is entitled to wage-loss payment on periodic
              roll and re-employment or wage earning capacity is not yet
              determined.

      •       PN: The claimant is entitled to wage-loss payment on periodic
              roll and is determined to have no wage-earning capacity or re-
              employment potential.

      •       PW: The claimant is entitled to reduced compensation reflecting
              a partial wage-earning capacity or actual earnings.

      In our analysis of the chargeback reports for CBYs 2006, 2007, and
2008, we summarized the cases by status and found that the total cost for
periodic roll cases was significantly higher than any other case status. While
only 6 percent of the total number of FECA cases for DOJ fell within the
periodic roll status, the accumulated expenses for long-term FECA cases
totaled approximately $154 million from CBYs 2006 to 2008 or 54 percent of
the total of DOJ FECA expenses. Exhibit 13 shows the breakdown of cases
and total expenses by case status.

          EXHIBIT 13: NUMBER OF CASES AND TOTAL AMOUNTS
               BY CASE STATUS FOR CBYs 2006, 2007, 2008
                                                                           Percent
                                             Percent of                    of Total
           Case Status             Cases       Cases      Total Amount     Amount
           Periodic Rolls            1,234           6%   $ 153,548,460         54%
           Medical Payments Only     7,116         33%    $ 50,215,373          18%
           Schedule Awards             612           3%   $ 34,542,640          12%
           Death Rolls                 150           1%   $ 16,163,234           6%
           Daily Rolls                 677           3%   $ 13,414,099           5%
           Closed Cases             11,255         52%    $ 12,554,292           4%
           Overpayment Cases            32           0%   $    1,891,535         1%
           Retired And Under
           Development Claims         497           2% $      69,609            0%
           TOTALS                  21,573         100% $ 282,399,244          100%
          Source: OIG analysis of DOJ chargeback reports for CBYs 2006
                  through 2008

       Further, we analyzed the long-term cases by comparing the number of
cases and dollar amounts for 3-year intervals. We found that cases open
longer than 15 years comprise approximately 40 percent of DOJ’s periodic
roll expenses. Exhibit 14 reflects the results of our analysis.




                                             32
            EXHIBIT 14: NUMBER OF CASES AND TOTAL COSTS
           FOR PERIODIC ROLL CASES DURING CBYs 2006, 2007, 2008
                        BY MULTIPLE YEAR INTERVALS




                                           Years




Source: OIG analysis of annual chargeback reports from CBYs 2006 to 2008

      Cases open for extended periods require long-term payment of
compensation benefits and result in a higher accumulation of costs. Also
contributing to the long-term accumulation of costs is the fact that FECA
program benefits are tax fee and do not end until death, and therefore
claimants choose FECA benefits rather than retirement under OPM. 42 They
also can choose to continue to receive FECA benefits after they reach
retirement age because FECA typically provides more net compensation than
OPM retirement benefits. These conditions indicate a need to monitor FECA
cases to ensure they do not remain open longer than necessary.

      Further analysis of the periodic roll cases shows that each DOJ
component experienced different levels of costs associated with periodic roll
cases. For example, while only 18 percent of ATF FECA cases fell within the
periodic roll status, this accounts for 68 percent of ATF’s FECA expenses. In
contrast, 4 percent of the FBI’s FECA cases fell within the periodic roll status
and accounted for 37 percent of its total FECA expenses. Exhibit 15

      42
          According to the DOL Agency Handbook, FECA prohibits payment of compensation
and other federal benefits at the same time. A person may not receive FECA benefits
concurrently with a regular or disability annuity.


                                         33
illustrates the percentage of periodic roll cases and the costs by DOJ
component for CBY 2008.

EXHIBIT 15: TOTAL AMOUNT AND CASE PERCENTAGES OF PERIODIC
                 ROLL CASES BY COMPONENT
                         CBY 2008




     Source: OIG analysis of DOJ chargeback report for CBY 2008

      We asked FECA Specialists at the ATF, BOP, DEA, FBI, and USMS to
explain the reasons for their periodic roll costs, and they provided the
following explanations:

      •     The ATF stated it has a large number of long-term claimants
            over the age of 60.

      •     The BOP stated it has numerous terminations due to injured
            employees failing to meet and maintain law enforcement
            requirements, which is a condition of employment.

      •     The DEA stated that injuries to Special Agents, who are among
            the more highly compensated employees at DEA, comprised
            57 percent of all cases at the DEA.

      •     The FBI stated that it is the second largest component in DOJ
            and attributes the number of injuries due to the number of
            employees.



                                         34
       •      The USMS stated that because of the physical requirements for
              performing law enforcement duties, the USMS often cannot
              return a Deputy U.S. Marshal to work in a full time capacity and
              can only accommodate an injured employee in a temporary,
              limited duty assignment.

       When we discussed the total FECA expenses with JMD’s Director of
Internal Review, he indicated that the annual benefit expense for DOJ in
CBY 2008 of $98 million did not meet the JMD’s materiality threshold of
$114 million. 43 Therefore, the staff in Internal Review did not specifically
review the detailed FECA expenses in DOJ because the Director’s primary
concerns were the overall financial statements and the FECA liability
accrual. 44 The former Director of JMD’s Office of Workers’ Compensation
stated that the reason for the increasing FECA expenses were due to the
rising medical costs of injured employees. However, we found that the
medical costs did not substantially contribute to the high FECA expenses, but
that compensation expenses comprised 71 percent of the FECA benefit costs.

Conclusion

        We believe that without adequate DOJ oversight, the DOJ FECA
program will continue to face increased risks of waste, fraud, and abuse.
Our audit revealed that 15 percent of the case files we selected for review
were not available, 21 percent did not contain the basic DOL claim form, and
34 percent lacked a recent medical update. In addition, 30 percent of the
case files we reviewed lacked evidence supporting an attempt by component
personnel to return an employee back to work. We also determined that
54 percent of DOJ’s total FECA expenses were for long-term periodic roll
cases paying wage loss compensation since July 1, 2005.

       As a result of these deficiencies, DOJ components are at risk for:

       •      having employees in the FECA program longer than necessary;



       43
          The materiality threshold is established by JMD to designate a minimum dollar
amount ($114 million) for accounts to meet to be eligible for a detailed review of
transactions. The detailed transactions of accounts at or below this threshold, such as the
account for DOJ’s FECA program, are not reviewed by JMD’s Internal Review Division.
       44
           The liability accrual is an estimated amount calculated by JMD Budget and Finance
Staff to show the expected costs over the next 2 years. The purpose of this estimated
calculation is to reconcile the different reporting periods between fiscal year (October 1 to
September 30) and chargeback year (July 1 to June 30) reporting. The estimated amounts
are contingent on the expense charged to DOJ each chargeback year.


                                             35
     •     providing incomplete or inaccurate information regarding FECA
           cases to all parties involved;

     •     ineffective monitoring of FECA cases and allowing FECA benefits
           to continue to rise indefinitely;

     •     harming the general public and taxpayer through wasteful
           spending; and

     •     potential abuse or fraud by claimants.

      In our opinion, controls over the entire FECA program need to be
strengthened. Controls must be sufficient to ensure that FECA Specialists
are aware of and consistently carry out procedural requirements, ranging
from creating and maintaining a case file to verifying the chargeback report
and promptly notifying OWCP of any errors or omissions found. In addition,
DOJ management needs to strengthen its methods for returning employees
back to work through proactive requests of second medical opinions and
obtaining and reviewing medical status updates for injured employees. We
also believe that the active monitoring, investigation, and review of FECA
cases will provide a strong deterrent effect for fraudulent or unnecessary
claims.

Recommendations

We recommend that the Justice Management Division:

     1.    Develop a procedure to ensure each DOJ component establishes
           and maintains on site a readily available case file for the
           respective FECA cases listed in each component’s annual
           chargeback report.

     2.    Establish minimum criteria by which each DOJ FECA Specialist
           should complete periodic case file reviews.

     3.    Ensure that periodic medical updates are obtained and evaluated
           for reemployment opportunities for all DOJ employees on the
           chargeback report and second medical opinions are pursued
           when necessary.

     4.    Develop a process to routinely monitor and update FECA case
           files that will further DOJ’s efforts in returning employees back to
           work or to a light or modified duty assignment.



                                     36
5.   Establish a procedure to ensure each DOJ component reviews
     the quarterly chargeback reports, identifies all possible errors,
     and reports errors to the OWCP for corrective action.




                               37
                                                                 APPENDIX I


                   STATEMENT ON COMPLIANCE
                  WITH LAWS AND REGULATIONS


      This audit assessed DOJ’s controls in place to effectively administer the
FECA program, reduce opportunities for claimant fraud, and return
employees back to work. The audit was conducted in accordance with the
Government Auditing Standards. As required by the standards, we reviewed
management processes and records to obtain reasonable assurance about
DOJ’s compliance with laws and regulations that could have a material effect
on operations. Compliance with laws and regulations applicable to DOJ’s
FECA program is the responsibility of DOJ’s Deputy Assistant Attorney
General for Human Resources and Administration.

      Our audit included examining, on a test basis, evidence about laws and
regulations. The specific laws and regulations against which we conducted
our test are contained in:

      •     Federal Employees’ Compensation Act.

      •     DOJ Human Resources Order 1200.1, Chapter 6-1.

      •     OPM Regulation – Agencies authority to require medical
            examinations (i.e., second medical opinions), 5 C.F.R. §
            339.301c (2008).

      Our audit identified no areas where DOJ was non-compliant with the
laws and regulations referred to above. With respect to those areas not
reviewed, nothing came to our attention that caused us to believe that DOJ
management was not in compliance with the laws and regulations cited
above.




                                      38
                                                                  APPENDIX II


              STATEMENT ON INTERNAL CONTROLS


      In planning and performing our audit, we considered DOJ’s internal
controls for determining our audit procedures. This evaluation was not
made for the purpose of providing assurance on the internal control
structure as a whole. However, we noted certain matters that we consider
to be reportable conditions under the Government Auditing Standards.

      Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of the internal control
structure that, in our judgment, could adversely affect DOJ’s ability to
manage its FECA program. We found that DOJ:

      •     lacked policies to ensure FECA case files were maintained and
            consistently reviewed;

      •     provided no oversight for routinely monitoring chargeback
            reports; and

      •     established no review to ensure complete and accurate claim
            information was recorded for case data.

      Because we are not expressing an opinion on DOJ’s internal control
structure as a whole, this statement is intended solely for the information
and use of DOJ in managing its FECA program. This restriction is not
intended to limit the distribution of this report, which is a matter of public
record.




                                       39
                                                              APPENDIX III


       AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY


Audit Objective

      The objective of this audit was to determine whether controls were in
place to effectively administer the FECA program, reduce opportunities for
claimant fraud, and return employees back to work.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       We conducted work at the Bureau of Alcohol, Tobacco, Firearms, and
Explosives; Drug Enforcement Administration; Federal Bureau of
Investigation; Federal Bureau of Prisons; Justice Management Division; and
United States Marshals Service in Washington, D.C. We also conducted work
at two federal prison complexes in Florence, Colorado, and Coleman, Florida,
and two U.S. Marshals District Offices in the Southern District of New York
and the Northern District of Texas. We also met with JMD, which is the
liaison between the Department of Labor (DOL) and DOJ. We used
judgmental sampling to select the sites that had the largest number of
claims as of March 31, 2008. Since a non-statistical sampling method was
used, the results cannot be projected to all sites.

      We interviewed 22 officials within DOJ at JMD, the ATF, BOP, DEA, FBI,
and USMS. The DOJ officials interviewed included the Director and Deputy
Director of Workers’ Compensation; Director, Deputy Director, and Assistant
Deputy Director of Finance; Director and Deputy Director of Internal Review;
Director of Budget Operations; Budget Analysts; Supervisory Compensation
Specialist and staff; Human Resource Specialist; Coordinator and Co-
Coordinator of Operations and Safety; and Safety Specialists.

       We conducted interviews with five FECA Specialists to obtain
information on matters such as procedures, requirements, initiatives,
training, and the overall responsibilities associated with the program, both
internally and externally.



                                      40
                                                                APPENDIX III


       In addition to the interviews, we reviewed documents and records
pertaining to the number of claims on file, number of injuries by type and
location on the body, the total liability and expenditures, financial allocations
for each DOJ component, DOJ Order 1200.1, and the Worker’s
Compensation Annual Reports for Fiscal Years 2006-2008. We also reviewed
information available on the DOL’s website pertaining to the program. We
judgmentally selected 458 cases for review to obtain broad exposure to
multiple facets of the cases, such as expense and age. We were able to
review 389 cases to assist in determining the effectiveness of managing
injury cases. Since a non-statistical sampling method was used, the results
cannot be projected to all cases.

       To achieve the audit’s objective, we used computer-processed DOL
data contained in the Agency Query System (AQS) and the Veterans
Administration (VA) Worker’s Compensation Occupational Safety and Health
Management Information System (WC/OSH MIS), two databases that
contain information on each federal employee who has filed an on-the-job
injury claim. DOJ generally uses WC/OSH MIS to enter new claim
information, which is verified against DOJ’s payroll information maintained
by the National Finance Center. The WC/OSH MIS then takes new
information and merges it into the AQS. We used the information provided
on the quarterly chargeback reports printed from the WC/OSH MIS and
verified attributes listed in the report to reference files being maintained by
DOJ components.

      We assessed the reliability of the DOL-provided data by comparing
DOL’s chargeback report data to the reference case files maintained by DOJ
components. Based on the results of our tests and information obtained, we
concluded that the data were sufficiently reliable to achieve our audit
objective.

       The audit scope covered the period from July 1, 2005, through
April 22, 2009.




                                       41
                                                         APPENDIX IV


                           ACRONYMS


ATF          Bureau of Alcohol, Tobacco, Firearms and Explosives

AQS          Agency Query System

BOP          Federal Bureau of Prisons

CBY          Chargeback Year

DEA          Drug Enforcement Administration

DOJ          Department of Justice

DOL          Department of Labor

FBI          Federal Bureau of Investigation

FECA         Federal Employees’ Compensation Act

FY           Fiscal Year

GAO          Government Accountability Office

JMD          Justice Management Division

OIG          Office of the Inspector General

OPM          Office of Personnel Management

OSHA         Occupational Safety and Health Administration

OWCP         Office of Workers Compensation Program

USMS         United States Marshals Service

WC/OSH MIS   Worker’s Compensation Occupational Safety and Health
             Management Information System




                                   42
                                                            APPENDIX V


                  FECA PROCESS OVERVIEW




Source: FECA Program Effectiveness Study, ICF Consulting,
        dated March 31, 2004, 23.




                                      43
                                                        APPENDIX VI


              DEPARTMENT OF LABOR
   OFFICE OF WORKERS’ COMPENSATION PROGRAM
                DISTRICT OFFICES


Location            Area of Responsibility
                    Connecticut, Maine, Massachusetts, New
Boston, MA          Hampshire, Rhode Island, and Vermont
                    New Jersey, New York, Puerto Rico, and the
New York, NY        U.S. Virgin Islands
                    Delaware, Pennsylvania, West Virginia, and
                    Maryland for claimants with a residence zip code
Philadelphia, PA    beginning with 21XXX
                    Alabama, Florida, Georgia, Kentucky,
                    Mississippi, North Carolina, South Carolina, and
Jacksonville, FL    Tennessee
                    Indiana, Michigan, Ohio, and all other areas
Cleveland, OH       outside the U.S.
Chicago, IL         Illinois, Minnesota, and Wisconsin
Kansas City, MO     Iowa, Kansas, Missouri, and Nebraska
                    Colorado, Montana, North Dakota, South
Denver, CO          Dakota, Utah, and Wyoming
San Francisco, CA   Arizona, California, Hawaii, and Nevada
Seattle, WA         Alaska, Idaho, Oregon, and Washington
                    Arkansas, Louisiana, New Mexico, Oklahoma,
Dallas, TX          and Texas
                    District of Columbia, Virginia, and Maryland for
                    claimants with residence zip code beginning
Washington, D.C.    other than 21XXX




                               44
                                                                       APPENDIX VII


           SCHEDULE OF BENEFIT EXPENSE BY AGENCY
                  AS OF SEPTEMBER 30, 2008
                                   (Dollars in Thousands)

Item      Agency                                                  Benefits Paid
1         United States Postal Service                              $1,001,131
2         U.S. Department of the Navy                                  219,285
3         U.S. Department of Veteran Affairs                           177,894
4         U.S. Department of Homeland Security                         160,695
5         U.S. Department of the Army                                  140,861
6         U.S. Department of the Air Force                             131,175
7         U.S. Department of Justice                                   102,131
8         U.S. Department of Defense – Other                           101,450
9         U.S. Department of Transportation                              98,999
10        U.S. Department of Agriculture                                 73,224
11        U.S. Department of the Interior                                60,217
12        Tennessee Valley Authority                                     55,325
13        U.S. Department of the Treasury                                53,465
14        Social Security Administration                                 25,872
15        U.S. Department of Health and Human Services                   25,822
16        U.S. Department of Labor                                       25,184
17        U.S. Department of Commerce                                    15,929
18        General Services Administration                                14,816
19        U.S. Department of Energy                                       9,385
20        U.S. Department of State                                        8,100
21        U.S. Department of Housing and Urban Development                7,583
22        National Aeronautics and Space Administration                   6,856
23        Environmental Protection Agency                                 4,513
24        Agency for International Development                            3,396
25        Small Business Administration                                   2,553
26        Office of Personnel Management                                  2,216
27        U.S. Department of Education                                    1,544
28        Nuclear Regulatory Commission                                     755
29        National Science Foundation                                       131
          Other Agencies                                               111,909
          Total – All Agencies                                      $2,642,416

Source:   U.S. Department of Labor, Special Benefit Fund Report 22-09-001-04-431,
          (October 27, 2008), 23-24.




                                              45
                            APPENDIX VIII


CLAIM FORMS CA-1 AND CA-2




           46
47
48
49
                                                                                                             APPENDIX IX


     COMPARISON OF RESULTS AND FINDINGS OF FECA
                 PROGRAM AUDITS




                                         Security –TSA 45


                                                            of Commerce –



                                                                            of Commerce –
                                                            Census Bureau




                                                                                                                                            Department of
                         1. Department


                                         2. Department



                                                            3. Department



                                                                            4. Department




                                                                                            5. Department
                                                                                            of Agriculture



                                                                                                                           7. U.S. Postal
                                         of Homeland
                         of Education




                                                                            Office of the




                                                                                                             6. USAID 46
    ISSUES




                                                                            Secretary
  IDENTIFIED




                                                                                                                           Service


                                                                                                                                            Justice
Lack of Monitoring          X                  X                                 X                              X                               X
Lack of Policy and
                            X                                                    X                                                              X
Procedure
Lack of Return to
                                               X                 X               X                                                              X
Work Efforts
No Department
                                                                                                                                                X
Oversight
Lack of
Documentation in                                                                                                                                X
the Case File
Detecting and
                                                                                 X                                                              X
Reporting Fraud
Timeliness of Claim
                            X                                                                  X                                                X
Form Submission
Coordination with
                                               X                                                                X
Safety Office
Training for
                            X                                    X               X
Supervisors
Develop
Information                                    X
System
Controverted
                                                                                                                              X
Claims
Recovery of
                                                                                                                X             X
Improper Payments
Obtain Medical
                                                                                                                                                X
Updates
Review Chargeback
                                                                                                                                                X
Report



       45
            Department of Homeland Security’s Transportation Security Administration (TSA).
       46
            U.S. Agency for International Development (USAID)


                                                               50
FECA Program Audit Reports

  1. U.S. Department of Education Office of Inspector General, Audit of the Department’s
     Management of the Federal Employees’ Compensation Act Program, Audit Report
     A19-D0008 (March 2005), 1.

  2. U.S. Department of Homeland Security Office of Inspector General, The
     Transportation Security Administration’s Management of its Federal Employees’
     Compensation Act Program, Audit Report OIG-07-45 (May 2007), 6.

  3. U.S. Department of Commerce Office of Inspector General, Preparing for Census
     2010: Follow-up Review of the Workers’ Compensation Program at the Census
     Bureau Reveals Limited Efforts to Address Previous OIG Recommendations,
     Inspection Report IPE-18592 (September 2007), 4-5.

  4. U.S. Department of Commerce Office of Inspector General, Management of
     Commerce’s Workers’ Compensation Program Needs Significant Improvements,
     Inspection Report IPE-17536 (March 2006), 11-15.

  5. U.S. Department of Agriculture Office of Inspector General, Management Oversight
     of Federal Employees’ Compensation Act Operations within the U.S. Department of
     Agriculture, Audit Report 50601-2-Hy (August 2005), 4-7.

  6. U.S. Agency International Development Office of Inspector General, Audit of the
     Management of USAID’s Federal Employees’ Compensation Act Program, Audit
     Report 9-000-07-003-P (December 2006), 1.

  7. U.S. Postal Service Office of Inspector General, Postal Service’s Injury Compensation
     Program’s Controversion and Challenge Process in Selected Areas, Audit Report HM-
     AR-06-004 (May 2006), 4-8.




                                           51
                                                                                       APPENDIX X


        OVERVIEW OF THE FECA CHARGEBACK PROCESS


                Injured Federal
    1
                   Employee

                                                              1. Injured worker files a FECA claim. OWCP evaluates
                                                                 and makes determination of payment. Payment is
           Claim                        Payment                  made to injured worker.

                                                              2. OWCP provides quarterly chargeback reports of claim
                                                                 payments to each Agency. This provides preliminary
                        FECA                                     indication of costs as well as gives the Agency a
          (Federal Employee Compensation Act)                    chance to dispute any costs attributed to that Agency.

                                                              3. By August 15 of each year, OWCP is required to send
                                                                 an Annual Statement (made up of the quarterly
                        OWCP                                     reports and any changes) and a bill summarizing the
        (Office of Workers Compensation Program)
                                                                 total FECA costs attributable to the Agency under the
                                                                 prior chargeback year (July 1 to June 30).

                                                              4. Upon receipt of the bill, the Agency must include the
                                                                 amount shown on the chargeback bill in its budget for
                                                                 the following fiscal year (Agency’s fiscal year).

                     Quarterly                                5. Congress approves the budget request.
                                       2
                     Reports                                  6. Agency reimburses/pays OWCP for the charges
                                                                 assessed to the Agency for the prior chargeback year
                                                                 in October (approximately 15 months from the bill).
   Disputes/                     Chargeback Funds
   Changes                        (paid in following          EXAMPLE: A bill sent to an Agency on August 15, 2001,
                                      October)                could cover the period July 1, 2000, through June 30,
                                                              2001 (OWCP’s chargeback year). The Agency must then
                                           6                  include that amount on their budget request for FY 2003,
                                                              which begins October 1, 2002 and ends on September 30,
                                                              2003. The chargeback bill is paid on October 1, 2002.
                      Annual Report / Bill
                                                    3
                      (July 1 – June 30)




                                                                       4
                                                   Budget Request
                          AGENCY
                                                                                             CONGRESS
                                                   Budget Approval
                                                                        5


Source: U.S. Department of Labor Office of Job Corps for the Office of the Secretary, Job Corps Technical
        Assistance Guide TAG E: Medical Transfer, Separation, and Referral; Management of Student
        Injury and Death Under FECA/OWCP, October 2006,
        http://jchealth.jobcorps.gov/documents/tags/tag-e (accessed April 2, 2009), 54.


                                                     52
                                                     u.s, Department of Justice




 JUL 3 0 ;rog
                                                     ,. .• , •.• _   D C. JOH'J




MEMORANDUM FOR RAYMOND 1. BEAUDET
               ASSISTAI\'T INSPECTOR GENERAL FOR AUDIT

FROM:
                            L«J.Lofth~
                            Assistant Anomey Ge
                                                   ~~
                              for Administration

SUBJECT:                    Draft Audit Report - The Deparunent of Justice's
                            Management of the Federal Employees' Compensation
                            Act Program

The Justice Management Division (JMD) has reviewed the subject draft report which was
provided by your office on July 8, 2009, The purpose stated in your draft report for conducting
the inspection was to detennine whether the Department of Justice (DOl) and its components
have established and implemented adequate effective controls to administer the Federal
Employees Compensation Act (FECA) Program; whether DOl management has implemented
controls to pre\'ent improper payments and opportunities for claimant fraud; and whether
effective initiatin's and practices exist for reducing the cause and duration of extended lelWe
related 10 occupational injury.

We note that the report memorandum indicales Ihal a copy of the draft report " "as also provided
10 Agency contacts ""ith injury and disability program responsibility for their review and that
they were advised to direct any commenlS to )'ou directly.

The following   art'   JMD's comments on the findings and recommendations contained in the
report.

R'lSommendation 1;

De,'clop' procedure to ensure each I>OJ co mponent esta blishes and maint ains on site.
rud il)' " 'ailable ease file for thc re$pecth'c fECA cases listed in each componcnt'. annual
charge back report.

The report indicates that 15 pereent of active 001 FECA case files selected for re"iew were
unavailable. Although various reasons were brought forth by the components to explain the
defiCiency, your position is that cases listed on the ~hargebad.: report should be maintained and
easily available to allow etTe~tive monitoring,

                                                53
Memorandwn for Raymond J. Beaudet                                                     Page 2
Subjeet: Draft Audit Report - The Departmem of Justice's Managemem
         of the Federal Employees' Compensation Act Program

As required by the Office of Workers ' Compensation Program (OWCP), DOJ components are
required to maintain a copy of the Compensation Act (CA) Form initially filed for the claim,
complete with all of the required signatures. These records are to be maintained and secured at
the employer's location. The documents in the file may include: medical reports, copies of
leiters and decisions by OWCP. the employer and the employee and/or hislher representative and
any other material which is part of the Ca5e file, regardless of its source.

JMD concurs with the recommendation to develop procedures that will ensure that all DOJ
components estabhsh and maintain on site a readily avai lable case file for FECA Ca5es listed on
their respective chargeback report. JMD recognizes the importance of maintaining CA Forms
along ""ith other important case file information and is currently working to establish and
provide "'TInen procedures which will include information on quanerly internal "cross over"
case file reviews that will ensure the availability and maintenance of CA Forms in the case file.
JMD will coordinate all efforts a5sociated with the internal "cross over" case file reviews to
include: coordinating the scheduling of the reviews, designating romponent personnel to
conduct the reviews, providing the random sample listing of case files, reviewing the wrilten
findings and providing a colleetiv ... report to all of the components with recommendations for
corrective measures where needed.

Recommend a tion 2:

Estahlish minimum criteria hy which each I)OJ FECA Specialist should com plete periodic
cue file review s.

We concur with this recommendation and will set a high priority for the development of dctailed,
""TItten procedures for periodic case file revie",'S. The procedures and criteria for reviewing case
files are currently being written for indusion in the Standard Operating Procedures Guide for the
Department's Workers' Compensation Program.

FECA requires, at a minimum, annual medical docwnentation to determine if a claimant is still
emitled to benefits under this provision. Medical documentation is used by the Compensation
Spedalist to detennine if a light duty assignment can be offered to the employee. In order to
make ajob offer, the agency must conduct active case file monitoring and obtain medical
evidence that would otherwise describe the injured workers' medical restrictions.

OWCP encourages active management of workers' compensation programs by agency
personnel. JMD recognizes the importance of devoting the time and effort necessary to ensure
that claims are processed in a timely fru;hion, that complete and accurate files are maintained,
and that constant monitoring and periodic reviews of claifll5 is conducted to facilitate return to
work efforts.



                                                54
Memorandum for Raymond J. Beaudet                                                        Page 3
Subject: Draft Audit Report - The Department of Justice's Management
         of the Federal Employees' Compensation Act Program

Recommendation 3:

Ensure that periodic medical updatcs art obtained and e"aluatcd for reemployment
opponunities for all DOJ employees on the chargeback report and sceo nd medical opinions
are pursued when necessary.

The report recommends that instituting a more proactive case monitoring approach, including
case file reviews, obtaining second opinions (SECOP) and medical updates, establishing return
to work policies, and more consistent monitoring of chargeback reports, could reduce the long-
tenn costs ofDOrs FECA cases.

We concur ".,ith this re\:ommendation to obtain periodic medical updates that will assist
Compensation Specialists with return to work efforts. We ",'ill provide written procedures to the
Compensation Specialists which will require that all long-term disability cases be reviewed on
an annual basis (at a minimwn) for medical documentation that would support a continued
entitlement to compensation benefits. This requirement is applicable to those cases where the
case StatUS indicates that updated medical documentation should be obtained.

The Depamnent can only make a written request to owep for SECOP evaluations. At vanous
stages of a claim, the claims examiner may determ ine that there is a need for a medical opinion
beyond the opinion of the claimant's treating physician. In most cases, the attending physician is
the primary source of medical evidence. Further, the Compensation Specialist will only make a
written request to OWCP for a SECOP where medical evidence is conflicting. Authorizations
for and approvals of SECOP's rest solely with OWCP; however, we will ensure in written
Department procedures that components are aware of their right and responsibility to request
SECOP's.

Recommendation     ~:


DeHlop a process to routinely monitor and update '-ECA case files that will furthu DOJ's
efforts in returning employees back to wo rk or to a li ght or modified duty as~ignmcnt.

JMD concurs with the recommendation to de\'elop a process to routinely monitor and update
cases files for the purpose of returning employees back 10 work. This is a key element for the
effective monitoring and management of case files.

When an employee has partially or fully overcome an injury or disability, the components will be
responsible for making every effort toward assigning the employee to limited duty consistent
with the employee's medically defined work limitation. The duty assignment can be developed
for part-time or full~time work.



                                                55
Memorandum for Raymond J. Beaudet                                                          Page 4
Subject: Draft Audit Report - The Department of Justice's Management
         of the Federal Employees' Compensation Act ?rogram

Managers, supervisors, injured workers, and Compensation Specialists wi!! all be required to
work togetber 10 develop lightll imited duty and temporary duty assignments. Then: may also be
a need to coordinate this effort wilb Human Resources to clarify issues related to grade, pay,
qualifications and other Federal benefits.

Components will be encouraged to monitor cases by using their quarterly cbargeback reports, the
Department's Workers' Compensation Occupational Safety and Health Management Infonnation
System to obtain various case infonnation and analysis I'l:ports, and the case file infonnation on
hand at their location.

JMD will include procedul'l:s for monitoring case fi les to identify tbose employees who are
capable to I'l:turning 10 work, as evidenced and documented in medical reports in the Standard
Operating Procedures Guide which is currently being developed.

Recommendati on S:

Es tablish a p r ocedu re to ensure each DOJ component r ev iews the qua rterly cbargeback
reports, identifi es all possible errors, a nd reports errors to tb e OWCP for corrective action.

Chargeback data is provided to DOJ by OWCP on a quarterly basis via storage media. The
chargeback period runs from July to June and chargeback data is available and provided to DOJ
on a quarterly basis. OWCP bills DOJ annually for paid compensation benefits, to include
medical care and costs associated with wage loss.

JMD concurs that there are no wrillen procedures to ensure lhat each DOJ component conducts
routine reviews of their chargeback reports and report errors for corrective measure; however,
001 components are tasked quanerly by lMD "ith reviewing their chargeback reports. There
have been a nwnber of credils and adjusunents made 10 001 over past years due to proactive
monitoring of quarterly chargeback I'l:ports.

DOJ components currently I'l:view tbe chargeback reports to verify proper o\\nership of all cases
for which the I'l:spcctive componenl is currently paying. The Federal BUl'l:au of Investigation
and the Bureau of Prisons work independently to identify such errors and report tbem to OWCP
for handling. Each quaner, JMD provides an eleclronic copy of the chargeback report to all
other OOJ components and bureaus to include: Alcohol, Tobacco, Firearms and Explosives,
Drug Enforcement AdminiSlration, Executive Office for the United SUlles Attorneys, U.S.
Marshals Service and Headquaners Componems. The components are curremly required to
review their chargeback report 10 verify lhatthe claimants identified are or were a DOJ employee
at the time of their injury and I'l:port any discrepancies to JMO within N 'O weeks of the report
being delivered. lMD will fOf\vard a collective report ofall discrepancies to OWCP's National
Office for handling. The National Office will follow-up with JMD on their findings and report


                                                 56
Memorandum for Raymond 1. Beaudet                                                           Page 5
Subje<:t: Draft Audit Report - The Department of Justice's Management
          of the Federal Employees' Compensation Act Program

all correClions and furure credits to JM D accordingly. JMD will notifY components of any
corrections, adjustments or future credits.

Components are now required to provide a ",'litten response to JMD that they have reviewed
their chargeback report and indicate their findings. These quarterly responses will be maintained
and filed by JMD.

In an effort to enforce and control quarterly chargeback report reviews, all components will be
given written instructions on how chargeback report reviews should be conducted and reponed_
JMD will perfonn a colle<:tive anal>'sis of the Department's concurrence with this new comroL
It is with this process in mind, that DOl will be able to correct chargeback reporting errors before
the agency is actually billed. alleviating the task of processing credits and adjustments _

We appreciate the opponunity to respond to your report and are confident that the
implementation of these reponed recommendations will assist Compensation Specialists and
management with addressing those challenges with respect to claims review, claims
management, return to work effons, and erroneous payments, thereby reducing the Department's
overall chargeback costs and opportunities for fraud.

If you have any questions regarding the above planned initiatives, please contact Edward
Hamilton. Director. Facilities and Administrative Services Staff, at (202) 616-2995.




                                                  57
                                                               APPENDIX XII


             OFFICE OF THE INSPECTOR GENERAL
            ANALYSIS AND SUMMARY OF ACTIONS
              NECESSARY TO CLOSE THE REPORT

       The OIG provided a draft audit report to the components involved in
this review. Because many of the issues we identified involved all DOJ
components and because JMD is charged with implementing DOJ-wide FECA
policies, we directed our recommendations to JMD, which concurred with all
of our recommendations. JMD’s response to our recommendations is
included as Appendix XI of this report. The following provides the OIG’s
analysis of JMD’s response and a summary of actions necessary to close the
report.

Summary of Actions Necessary Close the Report

1.   Resolved. JMD concurred with our recommendation to develop
     procedures that will ensure each DOJ component establishes and
     maintains on site a readily available case file for FECA cases listed on
     each component’s annual chargeback report. JMD stated in its
     response that it will coordinate quarterly case file reviews to be
     performed by DOJ components and reviewed by JMD.

     This recommendation can be closed when JMD provides evidence that
     the new procedures have been implemented and consistent
     compliance to these procedures is being applied within all DOJ
     components.

2.   Resolved. JMD concurred with our recommendation to establish
     criteria by which each DOJ FECA Specialist should complete periodic
     case file reviews. JMD indicated that new procedures and criteria that
     will provide detailed instructions for periodic case file reviews are being
     written for inclusion in the Standard Operating Procedures Guide for
     the Department’s Workers’ Compensation Program.

     This recommendation can be closed when JMD provides us with a copy
     of the new procedures and evidence that periodic case file reviews are
     being conducted by each DOJ component.

3.   Resolved. This recommendation is resolved based on JMD’s
     concurrence with the intention of the recommendation that periodic
     medical updates are obtained and evaluated and that second medical
     opinions are pursued when necessary. However, JMD’s response
     stated that “the Department can only make a written request to OWCP


                                      58
      for [second medical opinion] evaluations.” We agree with JMD that
      DOJ officials must work through OWCP to request second medical
      opinions for the purposes of disputing conflicting medical evidence.
      However, we disagree with JMD’s broader interpretation of regulations
      that “authorizations for and approvals of [second medical opinions]
      rest solely with OWCP.”

      OPM regulations specifically state that “an agency may require an
      employee who has applied for or is receiving continuation of pay or
      compensation as a result of an on-the-job injury or disease to report
      for an examination to determine medical limitations that may affect
      placement decisions.” 47 OWCP has interpreted this provision to
      authorize agencies “to arrange for examination of any employee who
      files a compensation claim by a physician of the agency’s choice, at
      the agency’s expense . . . in order to determine if the employee can
      work in some capacity, thereby facilitating return to work.” 48

      Therefore, we conclude that DOJ officials may directly require a
      claimant to submit to a medical exam with a physician of DOJ’s choice
      at DOJ expense in order to monitor the claimant’s ability to return to
      work.

      This recommendation can be closed when JMD provides us with
      documentation that it has: (1) implemented procedures to obtain
      periodic medical updates for all long-term cases listed on the annual
      DOJ chargeback report and (2) either provided DOJ components with
      adequate procedural guidelines for directly arranging for second
      medical opinions when necessary, or alternatively, provided us with a
      reasonable explanation for why this is not possible.

4.    Resolved. JMD concurred with this recommendation to develop a
      process to routinely monitor and update case files to further DOJ’s
      efforts in returning employees back to work or to a light or modified
      duty assignment. JMD acknowledged that DOJ components are
      responsible for making every effort to assign the employee to limited
      duty consistent within the medical condition and defined work
      limitations. JMD plans to include procedures in the Standard
      Operating Procedures Guide for monitoring case files to identify

      47
           5 C.F.R. § 339.301(c).
      48
         U.S. Department of Labor Employment Standards Administration, Injury
Compensation for Federal Employees, Publication CA-810 (January 1999),
http://www.dol.gov/esa/owcp/dfec/regs/compliance/dfecfolio/agencyhb.pdf, (Accessed
August 14, 2009), 49.


                                          59
     employees who are capable of returning to work, as evidenced and
     documented in medical reports.

     This recommendation can be closed when JMD provides evidence that
     the new procedures have been implemented.

5.   Resolved. JMD concurred with this recommendation to ensure that
     each DOJ component reviews the quarterly chargeback reports,
     identifies all possible errors, and reports errors to the OWCP for
     corrective action. JMD plans to develop written instructions on how to
     perform chargeback report reviews and report errors. DOJ
     components are now required to provide a written response to JMD
     confirming their review of chargeback reports and describing any
     findings. The results will be maintained and filed by JMD each quarter.

     This recommendation can be closed when JMD provides written
     evidence that DOJ components have reviewed the quarterly
     chargeback reports in accordance with the written instructions
     provided by JMD and reported any errors or findings to OWCP in a
     timely manner.




                                    60
